<html>
<title> - JOINT HEARING TO RECEIVE LEGISLATIVE PRESENTATIONS FROM NASDVA, FRA, GSW, BVA, JWV, MOPH, AND MOAA</title>
<body><pre>[Joint House and Senate Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 116-400
 
 JOINT HEARING TO RECEIVE LEGISLATIVE PRESENTATIONS FROM NASDVA, FRA, 
                     GSW, BVA, JWV, MOPH, AND MOAA

=======================================================================

                             JOINT HEARING

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS

                               BEFORE THE

                              U.S. SENATE

                                AND THE

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 12, 2019

                               __________

      Formatted for the use of the Committee on Veterans' Affairs
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
      


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                              ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
42-953 PDF           WASHINGTON : 2021 
         
        
                 SENATE COMMITTEE ON VETERANS' AFFAIRS

                   Johnny Isakson, Georgia, Chairman

Jerry Moran, Kansas                  Jon Tester, Montana, Ranking 
John Boozman, Arkansas                   Member
Bill Cassidy, Louisiana              Patty Murray, Washington
Mike Rounds, South Dakota            Bernard Sanders, (I) Vermont
Thom Tillis, North Carolina          Sherrod Brown, Ohio
Dan Sullivan, Alaska                 Richard Blumenthal, Connecticut
Marsha Blackburn, Tennessee          Mazie K. Hirono, Hawaii
Kevin Cramer, North Dakota           Joe Manchin III, West Virginia
                                     Kyrsten Sinema, Arizona

                       Adam Reece, Staff Director
                Tony McClain, Democratic Staff Director

        HOUSE OF REPRESENTATIVES COMMITTEE ON VETERANS' AFFAIRS

                   Mark Takano, California, Chairman

Julia Brownley, California           Dr. Phil Roe, Tennessee, Ranking 
Kathleen Rice, New York                  Member
Conor Lamb, Pennsylvania             Gus M. Bilirakis, Florida
Mike Levin, California               Amata C. Radewagen, American Samoa
Anthony Brindisi, New York           Mike Bost, Illinois
Max Rose, New York                   Dr. Neal Dunn, Florida
Chris Pappas, New Hampshire          Jack Bergman, Michigan
Elaine Luria, Virginia               Jim Banks, Indiana
Susie Lee, Nevada                    Andy Barr, Kentucky
Joe Cunningham, South Carolina       Dan Meuser, Pennsylvania
Gil Cisneros, California             Steve Watkins, Kansas
Collin Peterson, Minnesota           Chip Roy, Texas
Gregorio Kilili Camacho Sablan,      Greg Steube, Florida
    Northern Mariana Islands
Colin Allred, Texas
Lauren Underwood, Illinois

                       Ray Kelley, Staff Director
                 Jon Towers, Republican Staff Director
                 
                 
                            C O N T E N T S

                              ----------                              

                             March 12, 2019
                                SENATORS

                                                                   Page
Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........     1
Tester, Hon. John, Ranking Member, U.S. Senator from Montana.....    18
Blumenthal, Hon. Richard, U.S. Senator from Connecticut..........    24

                            REPRESENTATIVES

Roe, Hon. Phil, Ranking Member, U.S. Representative from 
  Tennessee......................................................     3
Takano, Hon. Mark, Chairman, U.S. Representative from Montana....    17
Sablan, Hon. Gregorio Kilili Camacho, U.S. Representative from 
  Northern Mariana Islands.......................................    19
Bost, Hon. Mike, U.S. Representative from Illinois...............    23
Cunningham, Hon. Joe, U.S. Representative from South Carolina....    27

                               WITNESSES

Ms. Alfie Alvarado-Ramos, Director, National Association of State 
  Directors of Veterans Affairs..................................     5
Mr. Robert Washington, Sr., National President, Fleet Reserve 
  Association....................................................     6
Mrs. Crystal Lynn Wenum, National President, Gold Star Wives of 
  America........................................................     8
Dr. Thomas Zampieri, National President, Blinded Veterans 
  Association....................................................    10
Dr. Barry J. Schneider, National Commander, Jewish War Veterans..    12
Mr. Douglas J. Greenlaw, National Commander, Military Order of 
  the Purple Heart...............................................    13
Ms. Rene A. Campos, Senior Director of Government Relations for 
  Veterans-Wounded Warrior Care, Military Officers Association of 
  America........................................................    15

                                APPENDIX

National Association of State Directors of Veterans Affairs, 
  Prepared Statements............................................    32
Fleet Reserve Association, Prepared Statements...................    50
Gold Star Wives of America, Prepared Statements..................    65
Blinded Veterans Association, Prepared Statements................    78
Jewish War Veterans, Prepared Statements.........................    98
Military Order of the Purple Heart, Prepared Statements..........   112
Military Officers Association of America, Prepared Statements....   123
American Defenders of Bataan and Corregidor Memorial Society 
  (ADBCMS), Prepared Statement...................................   143
Air Force Seargeants Association (AFSA), Prepared Statement......   151
Association of the United States Navy AUSN), Prepared Statement..   164
Non Commissioned Officers Association of the United States of 
  America (NCOA), Prepared Statement.............................   177
National Guard Association of the United States (NGAUS)), 
  Prepared Statement.............................................   189
The Retired Enlisted Association (TREA), Prepared Statement......   199


 JOINT HEARING TO RECEIVE LEGISLATIVE PRESENTATIONS FROM NASDVA, FRA, 
                     GSW, BVA, JWV, MOPH, AND MOAA

                              ----------                              


                        TUESDAY, MARCH 12, 2019

                      United States Senate,
                      and House of Representatives,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committees met, pursuant to notice, at 10:00 a.m., in 
Room SD-G50, Dirksen Senate Office Building, Hon. Johnny 
Isakson and Hon. Mark Takano, Chairmen of the Committees, 
presiding.
    Senators Present: Senators Isakson, Boozman, Rounds, 
Sullivan, Blackburn, Tester, Brown, Blumenthal, and Sinema.
    Representatives Present: Representatives Takano, Lamb, 
Rose, Brindisi, Cisneros, Lee, Underwood, Cunningham, Pappas, 
Allred, Sablan, Roe, and Bost.

             OPENING STATEMENT OF CHAIRMAN ISAKSON

    Chairman Isakson. I call the Veterans' Affairs Committee to 
order.
    It looks like a lot of us are not here, and that is the way 
you should judge it. But we are coming fast, so just hang on. 
You are not going to be stuck with me for the whole day. We 
will get some others here in a few minutes. There is some on 
the way.
    Chairman Roe--or last year's chairman, Chairman Roe, from 
the House is on the way. Mr. Tester from Montana will be here 
shortly, and Mr. Takano from the House, the Chairman, will be 
here as well.
    So I will start out, and when they come in, we will 
continue. And we start to ask members as we speak, which is 
great. Welcome. Glad to have you.
    Let me thank all of you for being here today. This is the 
fifth, I believe--is that right, Adam?--hearing. It is our 
fifth hearing. We have heard from a lot of vets. We had not 
heard from you. There is an old saying if everybody has heard 
everything that had to be said, everybody has not said it, but 
I am sure we are going to learn some things new here from you 
today. And we appreciate your being here.
    For the benefit of the audience that is here, as well as 
each of the representatives that are here, we sent a letter to 
every VSO explaining that if we had a hearing for each 
individual VSO, we would be meeting into the month of April. 
And it would be impossible to do our work. So we consolidated a 
couple of them, and yours is one of them.
    But everybody was asked to submit their testimony in 
writing, and that is being included for the record as well. So 
anybody who is interested in the positions of your 
representation and your group will be able to get it from the 
offices, from our Committee office and from the Senate.
    You are very important, each one of you, to us. The United 
States of America is a great country for a lot of reasons but 
none greater than its veterans, those who volunteered, risk 
their lives for the people of the United States of America and 
for all of us here.
    We know on this Committee, House and Senate. We are a 
bipartisan committee, and I can speak for the House because I 
know the exact numbers. We passed everything last year almost 
unanimously, with one dissenting vote, on the MISSION Act. That 
was pretty good for a committee almost equally divided with 
Republicans and Democrats, but we do not think there were any 
Republicans on the battlefield or Democrats of the battlefield. 
They were Americans on the battlefield. So we do not 
discriminate based on what you joined and what uniform you 
wore, how old you were, the color of your skin or anything 
else. We pay honor to those who risked their lives for the 
United States of America and the people.
    And one thing I want to make sure we do is that the 
benefits that you are entitled to when you enlisted, that you 
get those benefits in as least cumbersome way as possible and 
as timely a way as possible.
    We all know that the MISSION Act, which we passed this past 
year, was primarily focused on getting our problems with the 
Choice in the VA out, getting Choice meaningful for private or 
VA providers, making it work in a seamless fashion for each of 
you.
    I want to underscore you--and every chairman has said this 
in every meeting. So I am speaking for all four of us, the 
``four corners,'' as we call it. We have no interest in 
privatizing the VA; we have every interest in making the VA the 
best health care it can possibly be.
    [Applause.]
    Chairman Isakson. He always comes in when the clapping 
starts.
    [Laughter.]
    Chairman Isakson. Those people from Tennessee, I will tell 
you.
    But, anyway, we have all stated that when it has been our 
turn to testify in every one of these hearings, but we also 
know that there is no way you can have good quality health care 
available to every single veteran without using the empowerment 
of the private sector, and that is what Choice does. If you 
cannot get to a caregiver or if there is a specialty you cannot 
get to reasonably accessible, you pick one that is.
    And we are getting those access standards being done now. 
In fact, the access standards to private care was just released 
by the VA a couple days ago for talking points, which we will 
be testifying on shortly, and they are aimed to make it easier, 
faster, and more efficient for you to do that. And we are aimed 
at seeing to it that providers do the same, and TriWest is 
going to be doing our placement on that too as well. And we 
have told them in no uncertain terms that speed and efficiency 
and good care are the absolute requirements of everything.
    We want to measure the VA's health care based on quantity 
and quality, not just quantity, but quantity and quality. We 
want to make sure you get the best care, make sure it is 
readily available so you do not have to wait on it.
    You have all risked your life for us or put your life on 
the line for us. There is nothing we can do but see to it you 
get all the benefits that are there to do so.
    So I am pleased to welcome all of you here today to 
Washington. I appreciate you coming and sharing your time.
    The way we will operate is I am going to introduce the 
other members of the four corners of the Chairs and Ranking 
Members to make an opening statement, and then we will go to 
the members for questions after the opening remarks are going 
to be made.
    The opening remarks are going to be made by--I guess each 
one of you are going to make remarks about your particular 
group. Is that right? Is that what we are going to do? Yeah. So 
each one of you will be prepared. Those remarks will be limited 
to a maximum of 5 minutes.
    I can tell you, the Veterans of Foreign Wars, I did not 
pull the rug on him. I told him he had 5 minutes; he took 12. 
But he was a little guy that looked mean, so I did not want to 
have a mad veteran.
    [Laughter.]
    Chairman Isakson. But there are too many of you all to do 
that. So you all are going to have to adhere to our 5-minute 
rule, or I am going to have to rap the gavel, not because I 
want to be rude but because we have got a lot to do, and we 
want everybody to get their fair time.
    So, with that said, let me go to the Ranking Member of the 
Veterans Affairs' Committee in the United States House, the 
gentleman from Tennessee, Dr. Roe.

                  OPENING STATEMENT OF DR. ROE

    Dr. Roe. Thank you, Mr. Chairman. I will be brief.
    There are some special guests here. Any Tennesseans in the 
room? Anybody here make it from Tennessee?
    [No response.]
    There are some special guests. Our TAPS kids are here, and 
I want them to stand up: Lizzy Yeagy [phonetic], Chris Friarson 
[phonetic], and Jonathan Langford [phonetic]. If you guys would 
stand up in the back. Let us give them a hand.
    [Applause.]
    Dr. Roe. Thank you all for being here.
    In the last Congress--and I want to go very quickly over 
what we did in the last Congress and really turn the floor over 
to you all--as the Chairman had said, it was really a historic 
Congress as far as the VA was concerned.
    We passed the Accountability and whistleblower protection 
bill. We passed the Forever GI bill. And I think one of the 
things that we all--I do not care whether you are a Senator or 
a Congressman--appeals reform was incredibly needed because we 
all saw appeals that went out for disabilities for years, and 
many veterans died waiting on those appeals to get adjudicated.
    About 3 weeks ago, we have gone live with the new appeals 
program. We hope that that stops that.
    As the Chairman said, we passed a really transformative 
bill in the VA MISSION Act, and the Chairman is absolutely 
right. What this Congress wants is the veteran to get top-
quality care wherever they receive it.
    I just saw the President's ask in the budget, which is a 
7.5 percent increase per year for the VA, which is really 
remarkable.
    From the time I got here in 2009, the VA through its three 
components--the cemeteries, disability, and health care--it was 
$97.5 billion. That number the President asked for this year 
was $220 billion. So he has really kept his word to look after 
America's heroes.
    The one last thing I want to say, a bill very near and dear 
to my heart, which we really have been working on for 10 years 
is the Blue Water Navy bill. We need to get that across the 
finish line.
    The House passed it 382 to zero. The Chairman and Ranking 
Member on the Senate side worked very hard to get that bill 
done. I want to thank them for their help. We are going to 
bring it back again, and we are going to pass it in the House 
again. And I feel sure this time that the Senate will get that 
passed.
    I appreciate all of you all, who you represent. I 
appreciate you being here, and I yield back my time.
    Chairman Isakson. Thank you very much, Dr. Roe.
    Until the other two members of the four corners, Mr. Takano 
and Mr. Tester, come, we will introduce them later on in the 
program because I want to go right to you all. You all are on 
time and ready, so we are going to go to you. That is the way 
the military does everything. There, the NCO there, this 
officers group, you and I are the NCOs, so we will get things 
done around here. That is the way it works in the military; it 
is the way it is going to work on this Committee.
    Thank you all for being here, and we have for the audience 
knowledge--wait. I want to introduce Mr. Alvarado-Ramos.
    Is that correct? Did I do that right? I mean madam. Madam 
Ramos. I am sorry if I said--
    Mr. Washington from the Fleet Reserve Association.
    Ms. Wenum, President of the Gold Star Wives of America.
    God bless you, darling. You look great in that gold.
    Dr. Zampieri, National President of the Blinded Veterans 
Association, and I met you earlier. Thank you for being here 
today, and the information you gave me, I appreciate it very 
much.
    Dr. Schneider, Commander of the Jewish War Veterans.
    Mr. Greenlaw, Commander of the Military Order of the Purple 
Heart. Thank you, sir. It is an honor to be with you.
    And Ms. Campos, Senior Director of the Military Officers 
Association of America. Thank you, ma'am, for being here.
    So I am going to go directly to each one of you to make 
your statement, and then we will do questions. Keep it strictly 
to 5 minutes, please, because time is of the essence in this. 
We will start with Ms. Alvarado-Ramos.

               STATEMENT OF ALFIE ALVARADO-RAMOS

    Ms. Alvarado-Ramos. Chairman Isakson, members of the Joint 
Committee, my name is Lourdes, or Alfie, Alvarado-Ramos, 
president of the National Association of State Directors of 
Veterans Affairs, NASDVA. I am also the director of the 
Washington State Department of Veterans Affairs.
    NASDVA is comprised of the Veterans Affairs' chief 
executives in all 50 States, the District of Columbia, America 
Samoa, Guam, Mariana Islands, Virgin Islands, and the 
Commonwealth of Puerto Rico.
    We are the single organization outside of VA that 
represents the Nation's 19 million veterans, contributing more 
than $10 billion annually in services to veterans and their 
families.
    VA Secretary Wilkie and I signed a memorandum of agreement 
on behalf of both organizations last month. It outlines our 
partnership in direct services to our veterans and their 
families. We fully intend to exercise that agreement in order 
to address many of the recommendations made in our written 
testimony.
    I would like to highlight a few of those. NASDVA fully 
supports efforts to increase veterans' access to health care 
under the MISSION Act. We do not support wholesale 
privatization.
    Also, to meet the demands of the 21st century veteran, we 
are prepared to assist the VA with the electronic health record 
modernization. Failure is not an option for this multibillion 
project. The States are positioned to educate, promote, and 
provide VA with timely feedback for the success of this 
mission.
    We recommend and will be working with VA on the following. 
First, for suicide prevention and awareness, we want to create 
outreach block grants to States to address shortfalls and 
improvements on suicide prevention outreach. States are in a 
better position and closer to the vulnerable veterans who need 
help.
    Second, to properly serve the growing population of women 
veterans, the planning, renovating, and staffing of women 
veterans' clinics needs to be consistent across the country, 
which right now it is not.
    Third, for Veteran Treatment Courts, we recommend increased 
multiyear funding grants to aid judicial districts in the 
establishment and sustainment of this life-changing program.
    Fourth, following catastrophic events such as the 
hurricanes in Puerto Rico and the Virgin Islands, VA needs to 
establish provisions to care for all veterans in VA facilities, 
regardless of service connection.
    Fifth, we along with the National Association of State 
Veterans Homes recommend two critical additions to the VA 
Veterans Home Per Diem Grant program. First, VA needs to 
evaluate the implementation of a new assisted living level of 
care to serve veterans unable to thrive at home, and second, to 
operate critically needed psychiatric beds, we recommend an 
increase in the per diem reimbursement that reflects the 
intensity of the staffing that they require.
    Six, for the 2020 budget, we recommend the following levels 
of funding for the two large grants programs that impact the 
States--Veterans Home Construction Grant from $90 million--that 
is the recommended--to $250 million and the Cemetery 
Construction Grant from 45- to $50 million.
    Other areas of consideration are increasing outreach to 
rural Native American and Alaska Native veterans. Next, 
revisiting the State approving authority agencies total 
requirement allocation model to ensure States have the 
resources to adequately apply auditing standards, and this is 
for GI Bill implementation. Resolving the Department of Labor's 
resistance to governors appointing their agency of choice to 
administer the Department of Labor Vets Grant program, and 
also, we urge Congress to intervene with the Department of 
Commerce to obtain veteran information the 2020 Census short 
form.
    Finally, the emotional, physical, economic wellness of the 
families is paramount to veterans' quality of life. NASDVA 
recognizes the critical role families play in the veteran life 
cycle. We have spent billions of dollars to provide care to our 
veterans, but if the family is not well, then the veteran 
reaching his or her maximum potential will be compromised, 
resulting in the waste of precious resources.
    We not only support but are in a great position to work 
with Congress, VA, other Federal and State agencies to ensure 
that veterans' families receive counseling, employment 
opportunities, and other safety nets.
    Mr. Chairman and members of the Committee, thank you for 
your work on behalf of our Nation's veterans and their families 
and for including the National Association of State Directors 
of Veterans Affairs in this hearing.
    Chairman Isakson. Very well. I paid close attention. She 
only went 7 seconds over. She deserves a round of applause.
    [Applause.]
    Chairman Isakson. Anybody that exceeds that is going to 
have to sit in this penalty box somewhere later in the morning.
    [Laughter.]
    Chairman Isakson. Great job, Ms. Alvarado-Ramos. We 
appreciate it very much.
    Ms. Alvarado-Ramos. Thank you, sir.
    Chairman Isakson. Mr. Robert Washington, national 
president, Fleet Reserve Association.

               STATEMENT OF ROBERT WASHINGTON SR.

    Mr. Washington. Chairman Takano, Chairman Isakson, Ranking 
Members, and members of the Committee, good morning. My name is 
Robert Washington. I am national president for the Fleet 
Reserve Association and the first African American to hold this 
position.
    Behind me is Donna Jansky, a Navy veteran also, and she is 
the first woman national vice president of the association.
    I am a retired Navy senior chief, having served for over 26 
years in Naval service. I am honored to represent the concerns 
of the oldest sea service association that has been around for 
over 94 years.
    Today, many issues are at hand. I will address our top five 
in the time allotted and their relevance to the FRA. They are 
Blue Water Navy, VA claims filing and backlog, Choice program, 
veterans suicide, and women veterans' health.
    We, like you, are deeply troubled by the continued lack of 
passage of the Blue Water Navy Vietnam Veterans Act of 2017.
    We sincerely thank Representative Phil Roe and Mark Takano 
for their tenacity and leadership in last year's House vote of 
382 to zero. However, sadly, the Senate did not.
    FRA deeply appreciates the House Chairmen and Ranking 
Members' quick reintroduction of the same bill in the 116th 
Congress.
    Past VA policies permitted servicemembers to file claims if 
awarded the Vietnam Service Medal or the Vietnam Campaign 
Medal. However, in 2001, the VA implemented a boots-on-the-
ground determination, which continues to limit the Agent Orange 
presumption allowance for the veterans who serve on ships off 
the coastal waters of Vietnam. It is still unclear from recent 
court litigation where the next step will be for Blue Water 
Navy veterans.
    A recent modification introduced by Chairman Takano is a 
positive motion forward on behalf of these veterans. These 
initiatives strengthen continued awareness for eligibility 
status for the service-related VA medical and disability 
benefits.
    Mr. Chairman, the VA Secretary, under his authority, has 
always had the authority to make this happen; however, still 
has not elected to do so.
    Today, many of these veterans are senior citizens and can 
continue to hope for the earned benefit from those presumptive 
measures. Sadly, many will never have the choice to claim 
because they have already passed away or choose suicide as a 
result to ease their pain.
    FRA concurs with the President's recently announced 
initiative on this epidemic. FRA appreciates the efforts of 
both Committees to meet the challenges of the VA Choice 
program. The Choice program is the capstone model for our 
veterans health care. Agreeably, it will require measurable 
oversight to accomplish the desired effectiveness.
    FRA is especially thankful to the Congress for expanding 
the VA caregiver program to include all catastrophically 
disabled veterans.
    FRA continues to be deeply agitated over our veterans' 
suicide rate. Recent suspended spending measures taken on by 
the VA clearly demonstrates a lack of comfort in decreasing 
these destructive behaviors.
    FRA applauds Chairman Mark Takano's aggressive action of a 
new but a well overdue congressional task force in addressing 
women and veterans' health care.
    The association greatly supports the needed gender- 
specific medical and mental health access that will also 
require--is also unique to the needs of women servicemembers 
and transitioning veterans.
    Many women feel challenged going into a VA facility because 
of a climate of vulnerability that could enhance already 
associated anxieties, physical and emotional traumas from 
military, sexual trauma, and PTSD.
    FRA looks forward to working with the Committee and the 
task force to help women veterans, especially with our growing 
female membership and future leaders.
    On a positive note, the VA is making progress in the 
disability claims backlog but has a long way to go. The backlog 
may be down; however, appeals have spoked. FRA supports the 
Express Appeals Act passed in 2017 to speed up the appeals 
process that remains way too long. We hope bill passage will 
reduce the waiting times. Someone once said justice delayed is 
justice denied. That also holds true for disability claims.
    In closing, Chairmen Takano and Isakson, Ranking Members, 
and Committee members, all of these concerns should not add to 
the frustration of veterans. We thank you again for your 
leadership and direction on behalf of veterans and await your 
questions and comments.
    Chairman Isakson. Well, thank you very much, and before we 
go to the next speaker, just so everybody else knows this, on 
the Blue Water Navy question, Chairman Roe and Chairman Takano 
did a fantastic job in the House, did a fantastic job.
    The Senate, in the end, rallied. We got within two votes of 
getting it out of the Senate. We only had two objections, but 
we did have two objections. I think those objections are 
working their way off. The decision by the courts was 9 to 2. 
Whether or not the VA appeals that decision is yet to be known, 
and I am told--this is no authoritative statement whatsoever. 
Nobody can write or quote me on this, this thing is going to 
happen, but it is very difficult to see that being overturned, 
a 9-to-2 margin being that strong.
    That being the case, I think the Blue Water Navy will in 
fact get done this year. I do not see a major obstacle in terms 
of members of the Senate to cause something to happen. It could 
turn. Something could change, but the way we finished last 
year, I think that is the way it will be.
    And I appreciate you bringing that up, and I want to let 
everybody know the same thing so we do not have to waste some 
of your time on redoing another subject one more time. With 
that said, Crystal Lynn Wenum, welcome.

                STATEMENT OF CRYSTAL LYNN WENUM

    Ms. Wenum. Chairman Isakson, Chairman Takano, Ranking 
Member Tester, Ranking Member Roe, and distinguished members of 
both the Senate and House Committees on Veterans' Affairs, I am 
pleased to be here today to testify on behalf of the Gold Star 
Wives of America to share our legislative priorities.
    My name is Crystal Wenum, and I am the widow of Staff 
Sergeant James O. Wenum, a Vietnam veteran who served during 
the Tet Offensive. He died on May 8, 1982, leaving me to raise 
5- and 3-year-old children. His death was determined to be 
service-related 2 years later, and I joined Gold Star Wives 
that year.
    But in addition to being a Gold Star Wife, I am also a Gold 
Star Daughter. My father was killed in action at the Chosin 
Reservoir in Korea on November 29, 1950. My mother was 6 months 
pregnant with me and had a 1-year old son at the time. My 
mother joined Gold Star Wives in 1951, and I have literally 
grown up with this wonderful organization. I have remained 
active with Gold Star Wives, and I am proud to now be its 
national president.
    Gold Star Wives is grateful for all the public laws that 
have been passed in the years since 1946. These laws provide 
much needed benefits for surviving spouses and children of our 
military service members.
    My testimony today will be addressing some of the 
inequities and concerns that currently exist.
    Dependency and indemnity compensation. ``To care for him 
who have borne the battle and for his widow and orphan.'' These 
words from Abraham Lincoln's Second Inaugural Address in 1865 
succinctly state the sacred promise our country has made to our 
veterans and survivors.
    The VA stated in September 2018 that there are 394,028 
surviving spouses who receive DIC. The flat monthly rate has 
not been increased except for cost-of-living adjustments, since 
1993. When DIC is comparted to payments to surviving spouses of 
other Federal employees, DIC lags behind 12 percent. The other 
Federal survivor benefit plans pay a surviving spouse 55 
percent of the spouse's salary.
    We are looking forward to the introduction of bills in the 
Senate and House to increase the DIC from 43 percent to 55 
percent, which would bring parity with other parity with other 
Federal survivor programs.
    Survivor Benefit Plan/Dependency Indemnity Compensation 
offset. In 1972, Congress created the Survivor Benefit Plan for 
retiring servicemembers who may select up to 55 percent of 
their retirement pay towards SBP.
    The average monthly DIC offset to SBP is $915. The spouses 
subject to the SBP/DIC offset only receive the portion of the 
SBP that exceeds the DIC offset.
    A bill, H.R.553, Military Surviving Spouses Equity Act, was 
introduced in the House by Representative Wilson and 
Representative Yarmuth. There is a companion bill, Senate 622, 
Military Widow's Tax Elimination Act of 2019, of 2019 in the 
Senate. This one was introduced in a bipartisan effort by 
Senator Jones, Senator Collins, Senator Tester, and Senator 
Crapo. Both bills will repeal the SBP/DIC offset and eliminate 
the inequity.
    Eliminate the Remarriage Penalty for Young Surviving 
Spouses. GSW would like your assistance in changing current law 
that binds young surviving spouses to widowhood. Under current 
law, if the surviving spouse remarries before the age of 57, 
he/she forfeits lifesaving benefits afforded to them. GSW has 
realized age 57 is an arbitrary age that penalizes young 
surviving spouses.
    H.R.95 and Senate 91, the Homeless Veterans' Children Acts, 
would allow per diem payments to be extended to homeless 
veterans' children under comprehensive service programs. GSW 
supports these bills and hopes that Congress will pass them in 
a timely manner so that homeless veterans' children can be 
taken care of in the same manner as the veteran.
    Being intimately familiar with the devastating of death, 
GSW is extremely concerned with the overwhelming number of 
veterans and active-duty servicemembers who die by suicide 
every day. GSW supports any effort to reduce the rate of 
service-connected deaths by suicide.
    In conclusion, Gold Star Wives of America is appreciative 
for existing laws that provide vital benefits and support for 
surviving spouses and children of our military members who gave 
their lives for our country.
    President John F. Kennedy said, ``A nation reveals itself 
not only by the citizens it produces, but also by the citizens 
it honors, the citizens that remember.''
    Again, thank you for the opportunity to testify on behalf 
of Gold Star Wives of America. I am available for any 
questions.
    Chairman Isakson. Well, Crystal Lynn, before I turn it over 
to the next speaker, let me just say this. I love Senator 
Kennedy's quote, but we also as a country are distinguished by 
the wives and spouses of those soldiers who go to battle, those 
who make home for them, those who when they come home love 
them, and when they do not come home, honor them and cherish 
them like you have.
    Your double sacrifice is recognized, and we are all very 
sorry for it. But we are very proud of your service, the 
service you render on behalf of Gold Star Wives and Gold Star 
Mothers all over the country.
    We thank you for being here today, and we thank you for 
your sacrifice for your country.
    Ms. Wenum. Thank you.
    [Applause.]
    Chairman Isakson. Dr. Thomas Zampieri. ``Zampieri,'' is 
that right?
    Mr. Zampieri. Yes, sir.
    Chairman Isakson. Close enough, anyway.
    Mr. Zampieri. Close enough.
    [Laughter.]
    Chairman Isakson. Welcome, sir.

                  STATEMENT OF THOMAS ZAMPIERI

    Mr. Zampieri. On behalf of the Blinded Veterans 
Association, we appreciate the invitation to speak today before 
Chairman Isakson and Chairman Takano, Ranking Members Tester 
and Roe. Some of you are old friends, and we always enjoy our 
engagement with the members. And I welcome the new members 
here.
    We have been the Blinded Veterans Association 74 years come 
March 28th, and we are very proud of our tradition of working 
with the VA and with Members of Congress.
    Some five issues that I wanted to cover in the time that I 
have, one is that--and we appreciate that when you passed the 
MISSION Act, you included caregivers for the pre-9/11 veterans, 
and we are frustrated, though, because of the fact that as they 
work out the details for the caregivers support program for 
previous generations of our war-blinded veterans, first of all, 
the length of time, that we are told that it could take another 
year, we have got our immediate past president, who is a 
Vietnam veteran, who is blind, and he is on home dialysis. And 
his wife has health problems, and she is literally trying to 
take care of him.
    It is so frustrating. He has not just waited a year for 
implementation of this. I say he has waited 45 years for 
caregiver support.
    So, as you hold hearings and do oversight with the VA with 
the caregivers program, I certainly hope that you will ask 
witnesses questions about their timeline and then are they 
going to include catastrophically disabled veterans in their 
benefits.
    The other thing is we have worked with the VA consistently 
on trying to get them to make the IT systems accessible, 
Sections 508 and 504. Many of the members of the Committee are 
familiar with this.
    We are especially concerned that as they roll out with this 
new Cerner contract and the electronic health records, that is 
another chance that they will implement, yet again, another new 
program with their IT system that will not be accessible for 
blind veterans.
    So, as you have different witnesses coming over from that 
VA, I appreciate Chairman Roe--Ranking Member Roe and his 
persistence with the VA about making sure that things are 
accessible.
    Both the Veterans Benefits Administration and VHA, they 
really have to fix a lot of the stuff that they have had 
problems with in the past.
    Touching on a little bit of a different topic, which is 
Vision Research Program within the Department of Defense, for 
the House Members here, I know Friday is the deadline for your 
views and estimates. We are asking all the members of the House 
and Senate to request that the Appropriations Committees 
include $20 million for a vision trauma research program within 
the Department of Defense. It is the only place in the entire 
country where there is money for battlefield eye-trauma 
research.
    NIH does not do it. The VA does not do eye-trauma research. 
The only funding comes through DoD, and so when the Boston 
Marathon blast occurred or when the blast occurred up in 
Manchester, England, you go around the globe nowadays, and 
there is eye trauma from blasts. It is the research that DoD is 
doing that is helping our civilian trauma hospitals also and 
how they deal with these horrific eye injuries.
    The other thing is we have been working with the VA on 
trying to get them to include local transportation for blind 
veterans. It is a temporary program. Congress has to 
reauthorize it every year.
    Special mode transportation. The VA has sort of struggled 
with that. Different departments have said that you have to be 
wheelchair-bound before they will send a van out to pick you 
up. Special mode transportation, I would argue should be for 
any catastrophically disabled veteran that needs transportation 
to get to their medical appointments.
    We would like you to make the transportation program 
permanent, but also to ensure that the VA's policies include 
that blinded veterans be eligible.
    The Special Adaptive Housing grant, unfortunately, my 
friend, Senator Boozman left, but he and I worked when I was 
director of Government Relations on legislation for this 
adaptive housing grant program. That needs to be fixed because 
it currently requires you go have no vision in order to be 
eligible for the SAH.
    Those are the five things I wanted to cover. I appreciate 
your time and look forward to any questions you have.
    Chairman Isakson. Thank you for your testimony, your 
service, and your sacrifice. We appreciate it very, very much.
    Dr. Schneider.

                STATEMENT OF BARRY J . SCHNEIDER

    Mr. Schneider. Good morning, Chairman Takano, Chairman 
Isakson, honorable members of the Committee. My name is Dr. 
Barry Schneider. I am an Air Force career officer and the 
national commander of the Jewish War Veterans of the United 
States. Jewish War Veterans will celebrate its 123rd 
anniversary this coming Friday.
    The Jewish War Veterans of the USA acknowledge and 
appreciates the effort taken to reduce and prevent the current 
reported rate of 20 veteran suicides per day. Veterans are one 
and a half times more likely to commit suicide than 
nonveterans. More than 6,000 veterans take their lives each 
year.
    I hope the new Cabinet-level task force initiated by 
President Trump last week to prevent veteran suicides will be 
successful.
    Suicides, as a public health issue, affects everyone-- 
families, friends, and community. With the resources of this 
Committee, the VA, and Congress, a plan can be, and should be, 
devised to address this crisis in a meaningful and successful 
manner.
    More must be done. JWV urges the full mental health 
screening using all available assessment tools and full access 
to veteran facilities for all individuals exiting the military.
    As a lifelong educator and student, the issue of student 
veterans resonates with me in a very personal way. I have 
earned two master's degrees with significant assistance from 
Federal and DoD programs. I am pleased that the post-9/11 GI 
bill provides significant benefits and provides a positive path 
for returning veterans to reenter society as productive 
citizens.
    On behalf of JWV, we thank you for recognizing the 
importance of this bill and ensuring its continued funding. 
However, since the post-9/11 bill became law, many for- profit 
predatory colleges have sprung up, and they view our veterans 
as nothing more than dollar signs.
    There are many reports of aggressive and deceptive 
targeting of veteran servicemembers and their families. They 
engage in misleading recruiting practices on military 
installations and often fail to disclose meaningful information 
enabling potential students to determine if a college has a 
good record of graduating and positioning students for success 
in the workforce.
    As I have traveled around the country and visited many 
colleges and universities, I have found great differences among 
the various institutions. The schools which have excelled have 
one thing in common. They provide one-stop shopping for our 
veterans and their families.
    For example, the University of Colorado Boulder has 
established an office of Veteran and Military Affairs, VMA. 
This office is staffed by veterans for veterans. They operate 
from their own building and provide transitional support to 
higher education and civilian life.
    The unique circumstances of veteran students moving from 
the military environment to academia requires special support. 
The University of Colorado's VMA office provides this in an 
exemplary way. This includes a Bridge Summer program and their 
Veterans Ambassador program, which helps new students connect 
with other veterans prior to the beginning of the school year.
    The VMA office provides both academic and life counseling, 
tutoring, hands-on assistance, and applying for various VA 
benefits and financial supports.
    To ensure that all of our veterans receive this level of 
support, JWV asked the Department of Veterans Affairs and 
Congress to establish a rating system ensuring that all 
educational institutions that receive Government funding meet 
at least minimum requirements and standards of accountability 
to ensure that our veterans can select with confidence a 
program which will meet their needs.
    From my perspective, accountability must include single 
point of contract, proper accreditation, staffing by veterans, 
readily available access to counselors for academic and 
financial advice, and a sense of community where veterans can 
meet with other veterans to openly discuss problems and issues 
that they face during their transition.
    Further, a list of acceptable institutions must be made 
available on the VA website.
    Predatory institutions which take advantage of our veterans 
and their families must be stopped. The post-9/11 GI bill is a 
great benefit, and Congress must ensure its proper 
administration.
    These simple actions will ensure that our veterans have the 
greatest chance of success and that the Government receives the 
best return on their investment.
    I thank you for your time and attention.
    Chairman Isakson. Thank you, Dr. Schneider. We appreciate 
it very much.
    Mr. Greenlaw, the Military Order of the Purple Heart 
National Commander, we welcome you.

                STATEMENT OF DOUGLAS J. GREENLAW

    Mr. Greenlaw. Thank you, sir.
    Douglas J. Greenlaw, former First Lieutenant, 05332162, 
U.S. Army.
    You are part of the leadership of our Country, and I stand 
before you as a very proud individual. Thank you for all that 
you do.
    Earlier, I placed my formal words into the permanent record 
as National Commander of the Military Order of the Purple 
Heart. I would like to dedicate my precious time today by 
speaking directly to you up close and personal about our 
Country's combat-wounded veterans.
    I speak in behalf of the 500,000 Purple Heart recipients in 
America that were wounded in protecting our beautiful country 
in combat, and of course, we respect those that died in the 
form of their duty as well. We give them special recognition of 
their sacrifices.
    But, today, I would like to call about the combat- wounded 
vets, the survivors, those that have been spared death but have 
had the unfortunate case of being wounded, some gravely 
wounded. They live with the physical and the mental trauma that 
affects not only the body but the mind, sometimes even the 
soul.
    As a recipient of two Purple Hearts in Vietnam, I was 
wounded gravely the second time, but I consider myself 
fortunate because my scars lie beneath my clothing. Not all 
were so lucky.
    I know a patriot who woke up in a zipped-up body bag in the 
cooler, and that is only half the story. As he struggled in 
that bag, he had a religious experience. God visited him in 
that bag as he struggled, and to this day, he feels that he was 
told by God that Jesus never died. Jesus woke up in that tomb, 
just like he did, and he busted his way out. He showed his 
wounds to his friends, and he married Mary Magdalene, had a 
wife, children, lived a life.
    My pastor told me that that is a common theory called the 
``swoon theory.'' Well, it is no theory to the man in the bag. 
You will never convince him of otherwise.
    Charles Eggleston, a good friend of mine, was gravely 
wounded in an IED explosion and following mortar attack behind 
him. He suffered massive wounds. He was in the hospital for 3 
and-a-half years--3 and-a-half years.
    The surgeons were taking bones out of his back from the men 
blown up behind him. To this day, he has shards of bones in his 
body that he carries on a daily basis. Try living with that. It 
is called PTSD.
    Bob Bostwick, another friend, was wounded and captured, POW 
in the Korean War. As the Chinese who captured him dragged him 
overland to their hidden camp, they beat him focusing on his 
wounds, telling him they were going to torture, interrogate, 
and kill him. He thought, well, if they are going to kill me, 
they are going to kill me escaping. In the dark of the night 
that night, wounded and weak--he was a pretty strong guy--he 
overpowered--he killed his guards, two guards. He escaped 
somehow, weakened, finally found himself to find his way back 
to his unit in South Korea.
    Now, here is my point. Do you know how old this gentleman 
was when he experienced this? He was 18 years old--18, right 
out of high school.
    We are not fighting wars with 40-year-old Harvard MBAs. 
These are our young warriors that are out there, 18, 19 years 
old. I was the old man. I was the old man at 23 as an infantry 
company commander in Vietnam, fighting and leading 158 men in 
the swamps and valleys and rivers and mountains of Vietnam.
    May I please say just a couple of words about our young 
military today, the millennials. They are a find generation of 
Americans. Every military generation is better than the one 
before. Today, they are bigger. They are stronger. They are 
better equipped. They have the same patriotism than the 
veterans that fought before them. So if you see one, he is 18 
years old, treat him like an adult or her like an adult because 
that is what they are.
    I could go on and on with stories, but I know my time is 
limited.
    When legislation crosses your desk, please remember us, the 
combat wounded, the Purple Heart recipients.
    The laws on paper represent real men and real women from 
all wars, and your support is so important. If you remember 
anything I say today, please remember this. Our bodies heal, 
but our scars remain, and our wars never end.
    Thank you.
     Chairman Isakson. Mr. Greenlaw, thank you very much.
    And let me just comment, if I might, for 1 minute. Your 
testimony is very compelling. We are all aware of the sacrifice 
but sometimes not as aware of the depth of the sacrifice of an 
individual as you point in the stories that you told.
    We know what the Purple Heart means. It means you were 
wounded in battle. I did not know until you told me there were 
500,000 Purple Heart recipients. Is that the right number?
    Mr. Greenlaw. There is no exact number, but that is the 
estimate.
    Chairman Isakson. That is how many people took a bullet for 
us, basically to say.
    One other thing I want to underline is that the injuries of 
the wars of the 21st century are different from the injuries of 
any other war we have ever had, and so many of them are soft-
tissue injuries of the brain of the psyche, and of the soul. It 
is very important that you point that out. We should never 
forget anyone, and we should always remember there is a tragic 
story behind every veteran. Sometimes they hide it all their 
life from us, but they go through it every day because they 
were the ones that experienced it.
    Thank you for your testimony today. We appreciate it. Ms. 
Campos.

                  STATEMENT OF RENE A. CAMPOS

    Ms. Campos. Chairman Isakson, Ranking Members Tester and 
Roe, and members of the Committees, I would like to take this 
opportunity to ask our MOAA members in the audience to stand 
and give our appreciation and round of applause for making the 
115th Congress one of the most successful in recent years and 
for this opportunity to testify.
    [Applause.]
    Ms. Campos. I will start by leaving you with three 
important messages. First, there is no higher priority for 
veterans than to ensure the Secretary and his staff have the 
tools and the time they need to succeed.
    We must also keep our eyes on the impact of these reforms 
on veterans. One MOAA female veteran from Montana questions the 
new VA legislation and will it leads to real improvement. She 
says, ``I have been in the VA since 1994 with great success 
until recently. In the past 2 years, I have been assigned five 
different medical providers because the VA cannot keep the 
doctors. I am a cancer survivor who is not considered cured. I 
have had three different tests to keep everything in check. 
None of these tests have been reviewed with me.''
    Second, there needs to be more collaboration between the VA 
and the DoD to include hearings--between the Veterans and the 
Armed Services Committees on important issues such as toxic 
exposure, women veterans, the electronic health record, and 
mental health and suicide prevention, shifting more responsible 
back to DoD as an employer for addressing outcomes for 
transitioning servicemembers to veterans status.
    I will touch on three priorities from our statements. The 
first one is CHAMPVA. When ACA became law, it required health 
insurance plans to provide dependent coverage of children, 
including coverage for an adult child to age 26. Private-sector 
and DoD health care plans confirm to the law. MOAA urges the 
Congress to expand this care to CHAMPVA.
    Then, finally, in the area of behavioral health and well-
being, there is no doubt VA has made great strides in expanding 
its health care services to help veterans suffering from pain, 
traumatic injuries, and mental health. VA cannot let up its 
efforts because the need is so great.
    MOAA recommends investing in VA and DoD collaboration and 
services and investing in ways we can identify at-risk 
populations.
    Then in the area of women veterans, VA continues to 
struggle to adapt to meet the rising demand in delivering 
needed health care and disability benefits to the women 
veterans. For nearly 4 years, MOAA has partnered with the 
United Health Foundation, studying how the unique demands of 
military service affect the long-term health.
    We have produced three reports--two on a broad group of 
those who have served and a narrow report on women veterans.
    Last year's Health of Those Who Have Served Report revealed 
those who served are more likely to describe their health 
better than their civilian counterparts, but they are also more 
likely to suffer from a litany of chronic diseases and to 
engage in unhealthy behaviors.
    The study also showed some troubling trends, particularly 
among women veterans whose rates of suicide thoughts more than 
tripled between 2011 and 2016.
    MOAA is grateful to the Committees for your commitment to 
ensuring women veterans have equal access to medical and other 
benefits. The important work you did in the last Congress 
combined with Chairman Takano's and Representative Brownley's 
efforts in establishing a women's task force provide the needed 
momentum to make significant progress this year on these 
issues.
    In closing, I would like to share a story of an active-duty 
Army servicemember and his father's care in the VA and how it 
formed his perception of the VA.
    Just before retirement, his father received a letter from 
VA notifying him of the abnormally high rate of veterans in 
Desert Storm and Desert Shield in his unit with brain-related 
issues. VA later denied his father's claim because he could not 
prove service connection. He died at age 56 of brain cancer.
    Before his father's death, his son was told VA had no 
hospice program for veterans under 65. It took the director of 
the Indianapolis VA to finally authorize hospice care.
    This servicemember's takeaway, while the VA providers, the 
staff, and the health care were awesome, the lag time between 
discharge from service and VA care and the bureaucracy 
continues.
    This story speaks to the generational consequences of how 
we treat and care for our veterans. I know I want my son, who 
is in the military now, to be able to have the same trust and 
confidence in his VA when he leaves service as I have 
experience from my service.
    MOAA is committed to working with the Committees and the 
Department to help build a VA all veterans can be proud to call 
their own.
    Thank you again, and I look forward to your questions.
    Chairman Isakson. Thank you, Ms. Campos, and I am now going 
to turn the gavel over to Mr. Takano, the House Chairman, to 
complete the hearing this morning.
    I want to thank all of you for your participation and all 
the members for being here.
    Mr. Takano, I will turn it over to you. Thank you, sir.

              OPENING STATEMENT OF CHAIRMAN TAKANO

    Chairman Takano. Yes. Thank you, Chairman Isakson. It is 
always an honor to join you and Ranking Members Tester and Roe 
and all members of the House and Senate Committees on Veterans' 
Affairs to hear directly from the organizations that represent 
millions of veterans and their families who are impacted by our 
decisions. Like the rest of the members sitting at the dais, I 
take this responsibility very seriously.
    First, I want to welcome our partners from the National 
Association of State Directors of Veterans Affairs, the Fleet 
Reserve Association, Gold Star Wives of America, Blinded 
Veterans Association, Jewish War Veterans, Military Order of 
the Purple Heart, and Military Officers Association of America.
    I would also like to specifically recognize members from my 
home State of California. If there are any Californians here, 
just kind of wave.
    [No response.]
    I do not see anybody waving. That is kind of surprising.
    [Laughter.]
    Chairman Takano. But welcome, wherever you are from.
    Mr. Roe. It is a small State.
    Chairman Takano. That is right. Dr. Roe says it is a very 
small State.
    [Laughter.]
    Chairman Takano. I am thankful for the opportunity to hear 
from our VSO partners, many of whom are veterans themselves. 
Each of you represent a unique group of veterans and surviving 
spouses, and because of that, each of you possesses a unique 
set of concerns.
    The joint hearings provide us with a unique opportunity to 
hear the focused messages from so many of our VSO partners who 
do the work every day to help our Nation's heroes. Congress 
simply could not deliver on our promises without the dedication 
and firsthand understanding of the issues that affect our 
servicemembers, veterans, and their families. So thank you all 
for what you all do.
    With your help, we have identified many problems and fixes 
to those problems, but the work is far from over. Your 
continued input as we move through the 116th Congress is not 
only needed, it is truly appreciated. I ask that you continue 
to hold the administration and Congress accountable and ensure 
both fulfill our Nation's promise to care for our veterans. If 
we can afford to send our people to war to protect our country, 
then this country can and must afford to take care of our 
wounded when they return.
    Reading through your testimony, your concerns, I want to 
just say this. Your concerns are my concerns and the concerns 
of the House Veterans' Affairs Committee. The message from you 
and your VSO cohorts is clear. Congress must keep a vigilant 
eye on the VA and pass legislation to care for our veterans.
    Mental health, eliminating veteran suicide, ensuring equal 
access to quality medical care for all veterans, regardless of 
gender or disability, and to ensure that access to crucial VA 
services be available to veterans of all eras should be our 
priorities.
    Outreach and care for women and minority veterans must also 
be addressed in this Congress, and I am pleased that attention 
for these veterans' groups continues to rise.
    And I am glad that the testimony of the National 
Association of State Directors of Veterans Affairs highlights 
aspects of access hurdles our Native American veterans face.
    I want to make it clear to you today that I directed my 
staff in January of this year to better understand the hurdles 
that Native American veterans face in attaining earned VA 
disability benefits, and I plan to identify and implement 
solutions that will improve the lives of our Native veterans 
and all underrepresented veterans in my time as Chairman of the 
House Veterans' Affairs Committee.
    While I just touch on a few issue areas important to you 
and your membership, know that I am committed to helping 
advance your priorities in the coming year.
    I look forward to hearing your testimony today and thank 
you again for your tireless advocacy on behalf of our veteran 
community.
    So I am going to yield back to myself the remainder of the 
time.
    With that, I think we just move on to the------
    Senator Tester. I have an opening statement.
    Chairman Takano. Oh, you have an opening statement.
    I now want to recognize Senator Tester, the Ranking Member 
of the Senate Veterans' Affairs Committee, for his opening 
statement.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Chairman Takano, and I will be 
very brief.
    First of all, thank you all for your testimony. I very much 
appreciate the input that all of you have given us. As I have 
said before, we take our cues from the veterans service 
organizations and the veterans that are on the ground when it 
comes to making policy and hold the people accountable that 
that policy be carried out in an appropriate way.
    I do want to respond very quickly to Mr. Campos' comments 
about a woman veteran from Montana that has since 1996 seen 
five providers in the last few years. This is a problem. It is 
a huge problem in Montana where we went through, I think, eight 
directors in the last 12 years, and we cannot keep employees. 
Somebody is trying to privatize Montana's VA.
    It has gotten to the point now where when veterans call in, 
they immediately put them into the private sector, at least in 
some cases, without even offering them VA health care. That, in 
my opinion, is ridiculous. We have got to find out what is 
going on.
    And, as we move forward and as we do things like pass the 
MISSION Act and pass the Accountability Act and pass the 
appeals backlog and the Forever GI bill that we did last 
Congress, we have got to make sure things are improving and not 
going the other direction.
    There are some who want to privatize the VA. Hopefully, 
none of them are on this rostrum. They have said time and time 
again, they are not, but the bottom line is if you do not have 
docs--and that is what we are seeing in Montana--you have 
privatized the VA.
    So thank you all very much for your input. We look forward 
to our questions.
    Thank you, Mr. Chairman.
    Chairman Takano. Thank you, Senator.
    Now we will move on to 5-minute questioning. Are we doing 5 
minutes or 3 minutes? We are doing 5 minutes.
    I would like to first recognize Representative Sablan from 
the Northern Mariana Islands for 5 minutes.

         REPRESENTATIVE GREGORIO KILILI CAMACHO SABLAN

    Mr. Sablan. Good morning, everyone, and to our witnesses 
and to everyone in the room, thank you very much for joining us 
today.
    My favorite part of being in this Committee is to have 
conversations and listen to both veterans but particularly the 
veterans service organizations. Thank you very much for all 
that you do for our veterans.
    I come from a place where the only place in the United 
States that does not even have a CBOC. We have one of the 
highest enlistment rates in the uniformed services per capita 
in the Nation, and yet our veterans come back and do not have 
the services that they need.
    But let that go for a while. I would like to ask the 
witnesses at least to please raise your right hand if you 
support the privatization of the Veterans Administration.
    [No response.]
    Anyone who supports the privatization of VA?
    [No response.]
    Thank you, because neither do I.
    I think VA provides some of the best service for our 
veterans. We only need to continue working to improve those 
services.
    And, Mr. Chairman, thank you, and I yield back my time.
    Chairman Takano. The gentleman yields back.
    I call upon Dr. Roe for 5 minutes.
    Dr. Roe. Thank you, Mr. Chairman, and I want to thank all 
the members for being here and your incredibly compelling 
testimony.
    Dr. Schneider, you do not look 123. I am going to say that 
for you.
    Mr. Schneider. I am pushing it.
    [Laughter.]
    Dr. Roe. Tom, thank you for your comments.
    Certainly, I think the vision research that you pointed 
out, the $20 million, we have got to dig down and make sure 
that is there. If that is the only place that is occurring, 
that has to stay there. I totally agree with that.
    The transportation, I took several notes on what you would 
like to see done. Those are all, I think, incredibly reasonable 
things to do.
    Mr. Washington, I want to thank you for your eloquent 
comments about the Blue Water Navy. We have to get this right, 
this Congress. For 10 years, we have been working on this, and 
you have been working on it probably for 30. And I thank you 
for that and your support.
    All the VSOs have been incredibly supportive of this, and 
we plan, I know with the Chairman's help, to get this through.
    Ms. Campos, you mentioned something that is very near and 
dear to my heart. You cannot have continuity of care if you see 
five different doctors all the time, and I would respectfully 
disagree with my good friend, Senator Tester.
    The problem we are having in this country, we do not have 
enough providers. Getting those providers to go in rural areas 
is a challenge.
    I know I saw when the VA at home did not have an OB--I am 
an OB/GYN specialist. When they did not have that, I saw that 
as their extender. I was their OB/GYN department, our group 
was.
    So I think what we have to do--and we are getting market 
assessments across the country to find out what resources are 
available in each community in the country, and then that is 
when the Choice program is set up where it is. If the VA cannot 
provide that service, then it is provided outside the VA.
    I have said this a thousand times. If we have gone in my 10 
years here, we have over doubled the VA budget, that is not 
privatization. I think everybody up here believes that.
    I think we have got a huge challenge about how to get 
providers, and this current budget the President asked for was 
to increase the number of employees to 392,000. That is larger 
than the U.S. Navy. So we are doing I think what is right for 
our veterans.
    Implementation, as everybody has said, is absolute key, and 
certainly implementation of the MISSION Act, which is the most 
transformative bill I think we have passed in VA since I have 
been here.
    What hurdles do you all see in the VA MISSION Act? It goes 
live the 6th of June. Anyone can take that question. Biggest 
hurdle for the MISSION Act.
    Ms. Campos. I will take that question, sir.
    I think the biggest question is how will it be implemented 
across the system in a uniform consistent way, in a way that it 
can be explained to veterans, VA employees, that they will 
understand and be able to know if they are eligible right up 
front.
    So I think that there is a lot of challenges about we can 
look at quality. We can look at the access standards. Those are 
arbitrary.
    I think that we are still going to have problems as this is 
rolled out. There has not been a lot of communication.
    I know we have asked, with our other VSO colleagues, for 
more information from VA to get out to veterans, so they can 
understand what this means.
    I went to a Tallahassee VA not too long ago, and they are 
getting confused between the Choice program. Some people think 
that the MISSION Act and the Community Care has already been 
rolled out. So there is a lot of confusion out there, and I 
think that if we do not get ahead of the communication on this 
in the front end with the employees to be able to talk to 
veterans about those and to the providers, that those veterans 
are going to be talking to, as I said, across from their 
provider trying to decide where is the best place to get their 
care.
    Dr. Roe. I think several of us are having--I think it is in 
the morning. We are having breakfast with the Secretary. We 
will absolutely pass that along because I think the VA needs to 
include you guys, all the veterans service organizations, so 
you can educate your membership. I think that is a huge 
benefit.
    Before I yield back, Captain Greenlaw, I want to thank you 
for your incredible service to this great country. I salute 
you, sir.
    I yield back.
    Chairman Takano. Thank you, Dr. Roe.
    I recognize Senator Tester for 5 minutes.
    Senator Tester. Yeah. Thank you, Mr. Chairman.
    Just for the record, 12 year ago, we had one of the best 
VAs in Montana in the country. We had doctors. We have had a 
doctor shortage for some time. I have not had a doctor in my 
hometown in 30 years.
    What has happened in Montana is there has not been 
appreciation for the doctors that have done the work, and they 
have been run out. They are waiting in the private sector to 
come back, but they have got to have a VA that wants them back. 
And we do not have that in Montana. I do not know if they have 
that in Tennessee or not, but they do not have it in Montana.
    Quite frankly, it is a problem, and it is a big, big 
problem because our veterans deserve better than that. As the 
fellow from the Northern Mariana Islands asked, nobody wants to 
privatize the VA, and I certainly think the veterans prefer the 
VA over the private sector.
    But I want to talk about mental health for a second because 
I think just about every one of you talked about mental health 
in some form or another.
    It is a big problem. Tomorrow, I am going to introduce 
legislation that is going to do a couple things. It is going to 
strengthen support services for VA members who are 
transitioning from DoD to VA health care, that transition time. 
It is going to invest in innovative treatments for mental 
health conditions, different kind of treatments than we 
normally think about, somebody laying on a couch.
    Well, there are other methods too--yoga, music, animal 
therapy, meditation, acupuncture. It is going to cut red tape 
for VA and vet centers to hire more mental health 
professionals. It is going to increase rural veterans' access 
to telehealth, which as we know oftentimes can be better than 
eyeball to eyeball if we utilize it. So not only does it work 
in rural areas, it works in urban areas too. And it is also 
going to increase accountability of the VA's mental health 
outreach and suicide prevention efforts.
    Once again, we are going to work. We are going to work in a 
bipartisan way to get this bill passed. It has got to be 
implemented correctly if it is going to do what we want, but we 
all understand that mental health, which has been the signature 
injury coming out of the war for the last 20 years, is a big, 
big issue.
    For anyone on the panel, in terms of the VA's current 
mental health and suicide prevention efforts, can you tell me 
where the VA is making the grade and where it is missing the 
mark? Is there anything that the VA is doing that is working?
    Yes, go ahead, Mr. Greenlaw.
    Mr. Greenlaw. In South Carolina, I am from the Greenville 
area, up in the northern part of the State. We have one of the 
finest VA clinics, probably in the country. It is only a few 
years old, 78,000 square feet. It runs like a clock. They 
handle about 850, 900 vets a day, and they do a fantastic job.
    Senator Tester. Marvelous. Good.
    Mr. Greenlaw. So I think these clinics are the unsung 
heroes.
    Senator Tester. Yeah. Good.
    Anybody else?
    Ms. Alvarado-Ramos. Yes, Senator Tester.
    Senator Tester. Yes, ma'am.
    Ms. Alvarado-Ramos. From the National Association of State 
Directors of Veterans Affairs, in Washington State 
particularly, we have significant collaboration from the State 
with a program that does behavioral health and the Federal VA.
    The area where we have some challenges is with the vet 
centers----
    Senator Tester. Yes.
    Ms. Alvarado-Ramos. ----and the staffing.
    Senator Tester. Staffing of the vet centers?
    Ms. Alvarado-Ramos. Exactly.
    The vet center is such a hybridized system, such an amazing 
system to veterans and families that VA needs to fully staff 
those, and I think they are having some of the same issues 
regarding staffing----
    Senator Tester. Yes.
    Ms. Alvarado-Ramos. ----and them working for the Federal 
VA. But this is an area that when it comes to behavioral health 
and emotional wellness, there are critical services for our 
veterans and their families.
    Senator Tester. That is good input too.
    Dr. Zampieri.
    Mr. Zampieri. Yes. I was just going to say the same thing 
about the vet centers.
    Senator Tester. Yes.
    Mr. Zampieri. Being a Vietnam-era veteran, the vet centers 
have been amazing, but telehealth, mental telehealth clinics, 
whether you are in a big city or a rural area, it is another 
way to make access ability easier for those veterans.
    The crisis center, I applaud the VA for the work that they 
have done with the crisis center.
    Ironically, though, by the way, the website was not 
accessible for blind veterans.
    Senator Tester. Yes.
    Mr. Zampieri. Yeah. That is one of those things that you 
just say to yourself, ``How could that happen?''
    But the last thing--and you have touched no it, and we have 
talked before--is the length of time it takes to hire someone 
in the VA, whether it is a physician assistant, a psychiatrist, 
a psychologist, a counselor. It takes--and I know. My wife 
works in the VA system. That will get her in trouble, but it 
takes months and months.
    So you have a provider who comes and interviews.
    Senator Tester. Yes.
    Mr. Zampieri. They want the position, and 5 months later, 
they have not been brought in.
    Senator Tester. Bingo. Somebody else will hire them by 
then.
    Mr. Zampieri. Yeah.
    Senator Tester. Yes.
    And, by the way, we have worked to try to cut that down, 
but that is something we need to also keep paying attention to, 
to cut that timeline down. There is not a doc out there worth 
his salt that is going to stick around past 2 months. Fact. It 
is a fact.
    Thank you all for your input. Thank you all for your 
testimony. God bless you all.
    Chairman Takano. I now call on Representative Bost of 
Illinois for 5 minutes.

                    REPRESENTATIVE MIKE BOST

    Mr. Bost. Thank you, Chairman, and I want to thank all of 
you for your service. I want to thank you as veterans for your 
service and all of those that are out there that maybe are not 
veterans but are serving our veterans. I thank you so much for 
that.
    Let me also say this last year, we--and in your input, each 
group and organization, that when we put in the Appeals 
Improvement and Modernization Act. Let me tell you that that is 
an issue that we have worked on, and without your help and 
input on that, we could not actually get it going.
    But right now, the Secretary is getting ready to certify 
it. As your input helped that off the start to make sure we 
were taking care of our veterans and getting their appeals 
process speeded up, one of the main concerns I had was a legacy 
appeals.
    I am just asking the whole panel, anyone that could have 
input on this, what do you see where they are at right now? Can 
you give me feedback on what the veterans are feeling right 
now, those that are sitting in a legacy appeals process? Are 
they feeling like they are speeding up? Is it still just laying 
out there?
    Ms. Campos. I will take that question. I think when we 
think of the legacy systems, we tend to think more on the 
Department of Defense side where people have been injured, and 
they have been put in temporary, limited duty status or--excuse 
me--in a retirement status, temporary retirement status.
    Three years later, they come back. They may have gone 
through the joint disability evaluation system and were put 
into that retirement status, but then they have to come back 
and be reevaluated, and then they go through the legacy system 
on the DoD side. Then it is kind of viewed as they are going to 
be--their benefits are going to be decreased.
    We believe that if they have already been in the integrated 
disability evaluation system, they should be able to go back 
through that process again before they are reviewed for final 
retirement status.
    Mr. Bost. Many of these legacy appeals, we were afraid were 
going to linger out there. We were going to be able to hit the 
new appeals very quickly with the new system, but those that 
were old, that they could not get the reaction in time that the 
newer appeals processes were getting. And I do not know whether 
anybody is noticing that or not.
    Ms. Alvarado-Ramos. I will say something about that. I was 
in an Honor Flight last October and having a conversation 
around the table with some of our veterans, the people that we 
were guardians for. The conversation was, at that time, not 
around how long it took for their appeal to take place but 
comparing notes of how short a time it was taking. So I think 
there is progress being made by VA----
    Mr. Bost. Okay.
    Ms. Alvarado-Ramos. --when it comes to being able to 
expedite.
    And I just wanted to say just one quick thing when it comes 
to the States because one of the things that the States can 
provide is extensions to the VA to be able to work on the 
claims backlogs and to be able to get more veterans connected 
to those appeals and to the new system, but part of that is on-
the-ground services and States being able to get the ability 
through potential funding to expedited and be able to connect 
more veterans into the new systems.
    Mr. Bost. Well, the concerns I had--and I am very short on 
time. You see, I myself, as a Marine veteran, whenever I left, 
I had lost my high-frequency hearing. My wife believes that it 
is just a selective hearing that I have.
    [Laughter.]
    Mr. Bost. But we did have that tested.
    But it was at a time, at that time in the Marine Corps and 
the military--you are 23 years old and you want to go home. 
They ask you to sign a waiver, and then you do not have to be 
held there for an extra 6 months. Those do not hold up, 
supposedly, but at least I went through the process.
    I myself did not get the disability appeal. I did not. I 
got to the point in life that it really did not matter, but I 
kind of took the stand whenever I got here to speed up the 
process because I know how long it can be and how hurtful it 
can be, and finally, most of them give up rather than get what 
is owed to them. And it is my job, I feel like to continue to 
fight for that.
    So, if you see those come up, please let us know. We will 
continue to work hard for you, and thank you for being here.
    Chairman Takano. The gentleman yields back.
    I recognize Senator Blumenthal for 5 minutes.

                   SENATOR RICHARD BLUMENTHAL

    Senator Blumenthal. Thanks, Mr. Chairman. Thank you all for 
being here today, and thank you for your service to our Nation.
    I am sure there may be veterans here or are listening from 
Connecticut, and I want to thank them as well.
    Many of you have spoken about the priorities that I share 
and that I have worked on during my time in the United States 
Senate--veterans suicide is one of them, access to health care 
services for women veterans, and support for veteran caregivers 
of all generations, just to name a few.
    The President's budget for the coming fiscal year increased 
the overall appropriation request for the Department of 
Veterans Affairs, but I am very concerned that this proposal 
still fails to provide adequate resource for maintaining and 
improving VA facilities.
    The modernization of these facilities, particularly in the 
health care area, is critical to preventing a path to 
privatization. I believe privatization is anathema. Most of the 
Connecticut veterans, at least the ones I have spoken to, agree 
that privatization is to be avoided.
    So investments in major and minor conversation in addition 
to funding for nonrecurring maintenance is absolutely 
necessary.
    I will give you one example. The VA in West Haven, the 
hospital there, has antiquated infrastructure in its operating 
rooms, so that they are functioning right now at about 30 
percent of capacity. They were completely incapacitated for 3 
months because of flooding. They are now operating at 30 
percent of capacity because they lack the equipment necessary 
to sterilize the tools and equipment used in surgery.
    Think of it for a moment. As many as two out of there 
veterans needing surgery are either delayed or sent elsewhere 
because the VA hospital in West Haven cannot clean the tools 
and equipment they need for surgery. They are going to lose 
their certification. They are going to lose docs who want to 
work there. The strength of veterans' health care is the docs 
and staff and administrative personnel, the talent, that it can 
attract. If they cannot sterilize tools and equipment, what can 
they do?
    Well, what is the solution? A new facility. That is 5 years 
away, according to the VA most optimistic projection, 5 years 
away for a permanent new facility to sterilize tools and 
equipment at this major hospital.
    So, in the meantime, they have said, ``Let us get a 
trailer. Let us get a mobile facility, stop gap, temporary.'' 
How long will that take? A year. A year. Can you believe it?
    I do not know how common this problem is around the 
country, but in my view, the President's Budget Request has to 
address it more effectively because right now we are taking too 
long to provide the first-rate, world-class medicine that our 
veterans deserve in West Haven.
    I know my colleagues, many of them, have shared with me 
their frustrations with similar kinds of capital needs; that 
is, the need to rebuild and renovation, the capital equipment, 
the infrastructure.
    So I invite your comments. I am sorry that I have taken 
longer than I thought I would to talk about this issue.
    Yes, sir.
    Mr. Zampieri. Yes, sir. You have hit it perfect. In fact, 
West Haven, Connecticut, in addition to those surgical 
problems, the Blind Center in West Haven, which is one of the 
original ones from 1950s, they had flood damage due to broken 
pipes, and we have been waiting 3 years for them to fix it.
    So the bed inpatient count for blind rehabilitation at that 
facility has been reduced to like 40 percent. That Blind Center 
serves all of New England, blind veterans from Maine, 
Massachusetts, Rhode Island. That is where they are supposed to 
go, and the waiting times--it is because of the construction 
problems, and I think most of the bipartisan comments would be 
that, yeah, the VA does not do a good job at construction. But 
it still drags on and on.
    Senator Blumenthal. I just want to finish, and I apologize 
for taking a little more time.
    That comment is really so important and compelling, and I 
thank you for it.
    I also want to make clear that what I have said here is in 
no way a criticism of the dedicated doctors, physicians, 
surgeons, nurses, administrative staff at the West Haven 
Hospital. They are working with one hand tied behind their 
backs, no fault of theirs.
    The VA here in our Nation's Capital is hamstringing them 
because of the construction delays and impediments that it has 
created.
    So I have written to the Secretary asking him personally to 
expedite this situation.
    But as much as I hope that he will personally intervene, 
that is no solution nationwide, and your presence here today, I 
hope will provide a powerful impetus for us to unite on a 
bipartisan basis and demand better of the VA when it comes to 
these kinds of capital investments in our veterans care.
    Thank you so much, Mr. Chairman.
    Chairman Takano. Thank you, Senator Blumenthal.
    I now recognize myself for 5 minutes.
    With all due respect to my Ranking Member, it is true that 
VA investments have increased, but that does not necessarily 
gainsay that there is a privatization agenda afoot by some.
    We have a former Secretary of the Veterans Affairs 
Department in this administration, the first one that has 
claimed that a privatization agenda was what in part forced him 
out.
    I am alarmed by the percentage increase in spending on care 
in the community. It is a tremendous percentage increase, and 
while it is less than the absolute spending on medical care, if 
it continues to increase at that rate, it is going to put 
pressure on the internal capacity of the VA.
    Even as we have spent this money, increased amount of 
money, we still have 45,000 positions that remain unfilled, 
mainly at the Veterans Health Administration, and this is very 
concerning.
    The Secretary and everybody on both sides of the aisle 
pretty much has said, on both the House and Senate Committees, 
have enunciated an opposition to privatization of VA, and we 
are talking in particular about health services. But, in fact, 
careful manipulation of formulas, access standards, the way 
those access standards are implemented could definitely put us 
on a glide path very quickly toward an evisceration of the 
internal capacity of the VA, and what that would mean, frankly, 
community care is going to be more costly. And it is going to 
put pressure on future veteran use in terms of increased out-
of-pocket cost to that veteran.
    It is not going to be a better deal for the relationship, 
and it will not be a better deal for the veteran. And that is 
why I think so many veterans service organizations are 
concerned about what may be going on.
    So, as Chairman of the Veterans' Affairs Committee on the 
House side, I am interested in keeping the proper proportion, 
the proper balance.
    There has always been--always been a use of outside private 
contractors where the VA could not provide those medical 
services in-house, and there is not a medical network, a 
private medical network in this country, which does not 
coordinate the care in some way in a way that the VA 
coordinates the care and builds its own physician provider 
base.
    So that being said, I want to ask a question of Ms. Ramos--
Ms. Alvarado-Ramos. Bienvenido.
    As you may know, the total population of women veterans is 
expected to increase over the next decade, and women make up 
the fastest-growing cohort of veterans.
    Knowing this, our Committee has stood up a women's health 
task force led by my colleague, Congresswoman Brownley.
    What are some of the most critical needs of women veterans, 
and what policy recommendations can we enact to address those 
needs?
    Ms. Alvarado-Ramos. Probably the highest need is on the 
issue of emotional wellness or behavioral health because 
women--because of having been a minority--and I came in 1971 
into military service when we were 2 percent of the military 
force. The issues, saw military sexual trauma, issues of being 
able to manage their families alone, you know, sometimes being 
dual service families. There is a lot of pressure on women 
veterans having served in which they emotional wellness issues 
surface, and behavioral health and emotional wellness if the 
root cause of a lot of the issues that we are dealing with in 
the States and the Federal VA-- homelessness, unemployment, 
child abuse, in many cases subject abuse.
    And, therefore, if we are able to upstream, be able to deal 
while they are still no active due in ensuring that they are 
well as they leave the military, then that is going to 
transpose into the community, but if they need the services, if 
we need the services, it is important that the network has the 
capacity and also the gender-sensitive care that is needed for 
women to be able to get the care that they need.
    Chairman Takano. Thank you for your response.
    My time is up, and I want to now recognize the gentleman 
from South Carolina, Mr. Cunningham, for 5 minutes.

                 REPRESENTATIVE JOE CUNNINGHAM

    Mr. Cunningham. Good morning. I want to thank each and 
every one of you all for being here this morning and sharing 
your time with us. That is your most valuable resource, and it 
means a lot that you are here.
    I represent the First Congressional District of South 
Carolina, which goes from Charleston all the way down to Hilton 
Head. Out of all South Carolina districts, it has the highest 
population of veterans in the entire State, and I can tell you 
how proud I am to be able to claim that piece.
    Mr. Washington, this question was for you. As we all have 
family members or friends who have cared for others, we often 
realize it is the caregiver who suffers a lot as well. And 
sometimes attention is not placed enough on them.
    As you know, the VA MISSION Act improves caregiver programs 
by providing relatives or friends who care for eligible 
veterans, a stipend, training, and access to health insurance 
and counseling.
    While I believe we all agree our next steps should be to 
expand caregiver services to veterans of all--but beyond that, 
what else can we be doing to not only support the veterans but 
to support those who also support veterans, to support the 
caregivers and make sure they have everything that they need to 
care for our veterans?
    Mr. Washington. Thank you, sir, for the question. I just 
want to let you know that I am also from Charleston, South 
Carolina, so thank you.
    And that I think what we need to do is probably look at 
some kind of community-based sharing of mental health issues so 
that our veterans will have someone to turn to and also to make 
sure that the caregivers is implemented with a good oversight 
program to kind of keep watch on what is going on with the 
caregivers.
    Again, I would like to thank the Congress. This has been an 
initiative that has been going back for a very long time of 
providing for caregivers because it takes a lot away from them 
to have to--a change of life for them as well, too, to help 
that particular veteran get all the needs and care that they 
possibly can.
    So I would just think a little bit more transparency on 
community-based health that can help these veterans out when 
they can.
    Mr. Cunningham. Thank you, Mr. Washington. I hope to see 
you back home here soon.
    I reserve the rest of my time and yield back.
    Chairman Takano. You wish to yield back?
    Mr. Cunningham. I yield back.
    Chairman Takano. Is Senator Sinema--she left. She comes and 
goes.
    [Laughter.]
    Chairman Takano. I was like I looked. She was here a moment 
ago.
    That looks like it concludes all of our questions, and I 
will ask Dr. Roe if he has a concluding statement.
    Dr. Roe. Just very briefly.
    One of the things that passed under the radar screen last 
March were the inclusion of all the State veteran homes that 
were on the backlog. That is a huge deal. I think those are 
tremendous. Everywhere I visited a State veteran home, those 
have been really well received and well done, and the veterans 
are well served there. So I think that got passed over very 
quickly.
    Last week, I guess it was, the Chairman held a roundtable, 
which was the second one we have had in the last few months, on 
veteran suicide and what we can do to help lower that rate.
    I got very frustrated with that. When I look back at 2003 
and we as a Nation were spending about $2 billion a year, now 
we are spending $8 billion a year, and the needle has not 
moved. I thought if we are continuing to do that, let us do 
something different.
    So if you have ideas out there, please bring them to us, 
and we will be glad to listen to them because that is a 
tragedy. When you think if it is 20 people a day, that is a 
huge number of people in a year's time.
    The other good news--and there is a lot of good news--I 
just saw where the veteran unemployment is 2.7 percent. That is 
remarkable to have an unemployment rate that low.
    I will say this and with some levity, but Presidents' 
budgets make good doorstops. I have seen that over the years. 
The House and Senate appropriate the money, and we will decide 
how it is divided out and so forth. I think we can do that. We 
have been doing it for 200-plus years.
    One of the things that has been brought up--and I think 
Senator Blumenthal did--which was extremely important, a third 
part of that VA MISSION Act was the AIR Act, and that is how 
our VA is going to look. And I applaud the Chairman for doing a 
2030 view of what the VA will look like, and we even talked 
about what is the VA going to look like in 25 years.
    I am amazed at how fast 25 years goes by, and we should be 
thinking about that now because the current VA cannot look like 
it does now 25 years from now because the demographics of the 
country are changing. People are moving from the Northeast to 
the South and West.
    In 2045, there are going to be 12.5 million veterans 
because of an all-volunteer Army as opposed to ours which was a 
drafted Army. So we have got to look different, and we have got 
to provide the services closer to where the veterans life. 
Instead of having the veteran travel long distances in to see 
the VA, put the VA out where the veterans are.
    I agree with you, Tom, that the vet centers are great. The 
ones I have been in are incredibly impressive places to be.
    I will finish by--oh, the last thing--and I 100 percent 
agree with this. Our practice could hire a doctor before the VA 
could get the paperwork signed in, and the HR Director for the 
VA is going to come see me this week. We are going to start 
working on that. They have got to speed that up. I cannot tell 
you how many of my colleagues have said, ``Look, Phil, I want 
to go to work at the VA, but I have got to pay my bills,'' and 
so this is nurses, doctors, PAs, other people that make the VA 
function as it should be. I hear you loud and clear.
    Again, thank you all for being here.
    Mr. Chairman, thank you for allowing me to say a few 
closing words.
    I just appreciate what each and all of you do every day for 
our Nation's veterans.
    I yield back.
    Chairman Takano. Thank you, Dr. Roe, and I am very happy to 
hear you are going to see the HR Director. I hope you will pass 
on to me whatever you learn about what seems to be the 
impediments in the hiring process. I hear anecdotal stories all 
the time about people applying, doctors, specialists that are 
applying for jobs at the VA that are posted, and they do not 
hear back.
    As you know, a specialist, they are highly sought after. 
There are shortages in private-sector medicine, and as I have 
said many times before, in my part of California, Inland 
California, we have a shortage of both family physicians and 
specialists as well as medical professionals of all different 
stripes.
    In the context of that shortage, of course, it is going to 
be difficult for the VA to fill its vacancies in areas such as 
mine, and increased choice, an emphasis on choice, does not 
solve the problem because veterans are going to face long wait 
times and access issues, even if they are referred out into the 
community.
    Even with the full employment we have, we have a skills 
gap, a credentialing gap, a professionalization gap, and we 
have an opportunity to upgrade our workforce, especially our 
medical workforce. And I think we need to--and this is 
something you and I have discussed many times--is our mutual 
interest in a graduate medical school education, and I would 
take it further. We need to provide opportunities, affordable 
opportunities for more Americans to work in these health 
professions, to serve our veterans, but to serve our Nation, 
frankly. We have communities all over this country that are 
facing these challenges.
    With that, I will conclude my remarks.
    Thank you all for the work you do on behalf of our 
veterans, and what I love about my work is that the solutions 
we find are for homeless veterans, for women veterans, for 
Native American veterans, for homeless veterans. There are 
templates for solving those issues with the public at large.
    So thank you for the work you do, and with that, these 
proceedings are adjourned.
    [Whereupon, at 11:35 A.M., the Committee was adjourned.]

                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               
               







                                  <all>
</pre></body></html>
